                 U.S. Department of Agriculture

                    Office of Inspector General
                     Financial & IT Operations




       Audit Report

Commodity Credit Corporation’s
   Financial Statements for
  Fiscal Years 2007 and 2006




                       Report No. 06401-22-FM
                               November 2007
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250
November 13, 2007



REPLY TO
ATTN OF:      06401-22-FM

TO:           Board of Directors
              Commodity Credit Corporation

              Dennis Taitano, Controller
              Commodity Credit Corporation

ATTN:         T. Michael McCann, Director
              Operations Review and Analysis Staff
              Office of Business and Program Integration
              Farm Service Agency

FROM:         Robert W. Young             /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Commodity Credit Corporation’s Financial Statements
              for Fiscal Years 2007 and 2006


This report presents the auditors’ opinion on the Commodity Credit Corporation’s (CCC)
principal financial statements for the fiscal years ending September 30, 2007, and 2006. Reports
on CCC’s internal control structure and its compliance with laws and regulations are also
provided.

KPMG LLP (KPMG) an independent certified public accounting firm, conducted the audits. In
connection with the contract, we reviewed KPMG’s report and related documentation and
inquired of its representatives. Our review, as differentiated from an audit in accordance with
Government Auditing Standards (issued by the Comptroller General of the United States), was
not intended to enable us to express, and we do not express, opinions on CCC’s financial
statements or internal control or on whether CCC’s financial management systems substantially
complied with the Federal Financial Management Improvement Act (FFMIA); or conclusions on
compliance with laws and regulations. KPMG is responsible for the attached auditor’s report,
dated November 7, 2007, and the conclusions expressed in the report. However, our review
disclosed no instances where KPMG did not comply, in all material respects, with Government
Auditing Standards and the Office of Management and Budget Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements.
Board of Directors et al.                                                                       2


It is the opinion of KPMG, that the financial statements present fairly, in all material respects,
CCC’s financial position as of September 30, 2007, and 2006; and its net costs, changes in net
position, and budgetary resources, in conformity with generally accepted accounting principles.

The KPMG report on CCC’s internal control structure over financial reporting identified four
significant deficiencies. Specifically, KPMG identified weaknesses in CCC’s:

   •   Information security controls;
   •   financial system functionality and funds control;
   •   management’s review procedures over the cash flow models for direct and credit
       guarantee programs; and

   •   producer monitoring procedures.


KPMG considered the first three significant deficiencies to be material weaknesses. The results
of KPMG’s tests of compliance with laws and regulations disclosed instances of noncompliance
with the Federal Information Security Management Act, FFMIA, and the Anti-Deficiency Act.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, including the timeframes to address the
report’s recommendations. Please note the regulation requires a management decision to be
reached on all findings and recommendations within a maximum of 6 months from report
issuance.
